                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                              Inspection of Embassy Lisbon, Portugal, and
                                            Constituent Posts

                                         Report Number ISP-I-12-53A, September 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                               Table of Contents
Key Judgments                                                    1
Context                                                          2
Executive Direction and Cross-Cutting Issues                     3
  Morale                                                         4
  Equal Employment Opportunity                                   4
Policy and Program Implementation                                5
  Political and Economic Reporting and Advocacy                  5
  Records Management                                             5
  Leahy Human Rights Case Vetting                                6
  Law Enforcement Working Group                                  7
Public Diplomacy                                                 8
  Press and Information Activities                               8
  Educational and Cultural Exchanges                             9
  Administration                                                 9
Consular Operations                                             11
  Consular Agency Funchal                                       12
Consulate Ponta Delgada                                         13
Resource Management                                             15
  Management Section                                            15
  Financial Management                                          16
  Human Resources                                               17
  Language-Designated Positions                                 19
  Information Management and Information Security               19
Quality of Life                                                 22
  Community Liaison Office                                      22
  U.S. Government Employees Cooperative Association of Lisbon   23
Management Controls                                             24
  Consular Management Controls                                  27
List of Recommendations                                         28
List of Informal Recommendations                                32
Principal Officials                                             34
Abbreviations                                                   35




                                      iii
                          SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Key Judgments
•   An engaged executive team leads Embassy Lisbon. The mission conducts policy advocacy
    well on bilateral and North Atlantic Treaty Organization (NATO) issues.

•   The embassy produces high-quality reporting on Portugal’s economic situation and bilateral
    military and NATO cooperation. Embassy reporting officers should expand their outreach.

•   Interagency coordination is strong, and public diplomacy is fully integrated. The mission
    energetically conducts commercial promotion.

•   The Ambassador’s intervention with Washington policymakers has raised Portugal’s profile
    in the interagency process. (b) (5)



•   The embassy devoted excessive time and resources to two conferences not directly
    supporting U.S. policy priorities for Portugal.

•   Post morale is adversely affected by the perception that the Ambassador does not fully
    comply with Department of State (Department) regulations and that he has bypassed section
    heads to deal directly with their subordinates.

•   Embassy facilities are well maintained. Physical security standards are met.

•   Staffing at Consulate Ponta Delgada should be reduced and the consular agency in Funchal
    should be closed. These two actions will result in $420,000 in funds put to better use.

•   The Department should eliminate language requirements from five positions to save
    $525,000.

        All findings and recommendations in this report are based on conditions observed during
the on-site review and the standards and policies then in effect. The report does not comment at
length on areas where OIG did not identify problems that need to be corrected.

       The inspection took place in Washington, DC, between April 23 and May 11, 2012; in
Lisbon, Portugal, between June 7 and 26, 2012; and in Ponta Delgada, Lisbon, on June 15, 2012.
(b) (6)




                                          1
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
       Portugal has a population of 10.7 million, including the autonomous Madeira and Azores
archipelagos. Portugal was a founding member of NATO and has been a European Union
member since 1986. Portugal holds a 2011-2012 nonpermanent United Nations Security Council
seat.

        An economic austerity program proposed by Socialist Party Prime Minister Socrates was
rejected in March 2011, precipitating parliamentary elections that brought Social Democratic
Party Prime Minister Passos Coelho to power in June 2011. The government is preoccupied with
implementing austerity measures under the European Union/International Monetary
Fund/European Central Bank bailout agreement. Portuguese unemployment is 14 percent; youth
unemployment is double that level.

        Relations between Portugal and the United States are positive in many fields and in
regional and multilateral fora. The defense relationship is strong despite concerns about the U.S.
Air Force’s proposed reductions in its presence at Lajes Field in the Azores. There is also
significant cooperation on counterterrorism, law enforcement, science, and technology. Trade
levels are relatively small with 2011 U.S. exports to Portugal of only $1.2 billion and imports
from Portugal at double that level. Portugal is not a significant source for inward investment to
the United States.

       Most Portuguese see the bilateral relationship as solid based on enduring ties of
friendship and mutual interest. At the same time, Portuguese support for U.S. policy priorities is
not guaranteed. Both the Portuguese Government and the people of the Azores are aware of the
economic repercussions of a diminished U.S. presence at Lajes Field.

       Portugal hosts 300,000 American tourists yearly and 25,000 Americans reside in the
country. American citizens services are provided at the embassy, Consulate Ponta Delgada, and
a consular agency in Funchal, Madeira.

       The inspection focused on internal management controls, strategic priorities, and staffing
of consular operations in constituent posts.

        Staffing for Embassy Lisbon consists of 42 Department direct hires, 15 other agency
direct hires, 14 local U.S. hires, and 106 locally employed (LE) staff members, for a total of 177
employees. The mission’s total funding in FY 2011 totaled $17.7 million. The mission was last
inspected in 2003 and underwent a compliance followup review in 2004.




                                           2
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Executive Direction and Cross-Cutting Issues
       An activist noncareer Ambassador leads Embassy Lisbon. He brings a vigorous
management style to this midsized mission, while the deputy chief of mission (DCM) brings a
breadth of Department experience. The OIG survey of Department offices and other related
agencies rated the embassy’s economic and political reporting as timely and of high quality on
Portugal’s financial situation and the bilateral security relationship, including Portugal’s role as a
NATO partner.

         The executive team functions well in important areas. Mission officers enjoy easy access
to the front office. Interagency assessments of the Ambassador and DCM ranked above average.
Department officers had a more reserved view of the Ambassador’s management style although
they credit him with raising Portugal’s profile in Washington policy circles, supporting U.S.
commercial interests, and engaging with the Portuguese Government.

        The embassy has the framework for a sound policy and planning process. Tactically, the
Ambassador runs a crisp country team meeting each week as well as more frequent senior staff
meetings. Strategically, the Mission Resource Request is realistic and aligned with U.S. goals.
The embassy devoted two off-site brainstorming sessions to strategic planning. However, it also
devoted significant resources to two large conferences on subjects of low priority in the bilateral
relationship. These conferences, on childhood obesity and Holocaust education, did not emerge
from the strategic planning process, but were initiated by the Ambassador. The OIG team
counseled him on the need to direct embassy resources in support of priority policy goals.

        The embassy also channeled significant mission time and resources into the twice-yearly
meetings of a standing bilateral commission, which was created by a 1995 treaty governing
military cooperation. The Ambassador spearheaded a reconfiguration of the commission in 2011
to include new committees with obligations for “action-forcing” reports in five policy areas
(trade/investment; justice and home affairs; science, technology, energy, and environment;
defense; and development of the Azores) as well as nonpolicy areas associated with maintenance
and labor issues at the U.S. Air Force base at Lajes.

       The number of participants from both governments increased as did their rank. (b) (5)


                                                                                        Embassy
officers reported feedback from Portuguese Government offices expressing concerns over the
difficulty in keeping pace with the staffing demands for the present schedule. The OIG team
discussed with the embassy possible options for reducing workload while maintaining the utility
of the commission.

       Informal Recommendation 1: Embassy Lisbon should review staffing requirements for
       the standing bilateral commission meetings with a view toward reducing the time and
       resources devoted to them.



                                            3
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       An entry-level political officer serves as the Ambassador’s staff assistant. The position is
unnecessary and the nature and level of the work do not meet Department standards for first- and
second-tour Foreign Service officers needing to develop their skills and experience.

Recommendation 1: Embassy Lisbon should eliminate the Ambassador’s staff assistant
position and return the incumbent to duty in the political/economic section. (Action: Embassy
Lisbon)

Morale

        Embassy morale is mixed. One negative factor is that the Ambassador has had a tendency
to bypass section supervisors to task their subordinates. The Ambassador told the OIG team that
the arrival of a strong DCM has made the practice less necessary. (b)(5)(b)(6)




                   In the Management Controls section of this report the OIG team
recommends that measures be taken to ensure that all employees understand and follow proper
travel procedures.

Other Executive Issues

         Both the Ambassador and the DCM are engaged in security awareness and emergency
drills in the mission. The emergency action committee is chaired by the DCM with an agenda set
by the regional security officer.

Equal Employment Opportunity

        The OIG team heard no complaints of Equal Employment Opportunity violations. The
embassy staff reflects gender, racial, and ethnic diversity. Senior leadership takes seriously its
obligation to provide mentoring to first- and second-tour officers and specialists.




                                           4
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Political and Economic Reporting and Advocacy

        The combined political/economic section has met essential requirements to deliver timely
démarches, complete mandated reports, transmit cables on breaking events, and provide quality
reporting on Portugal’s financial situation and the bilateral security relationship. Washington
consumers praise Lisbon’s work on the latter two issues. The section recruits interns and
temporary duty personnel from Federal economic agencies to help on economic, energy,
environment, science, and technology topics. Employees are collegial and mutually supportive.

        The section could be more productive. It has not cultivated contacts across diverse sectors
whose views could strengthen reporting especially on political and labor affairs. Sustained
engagement with working-level Portuguese officials could facilitate bilateral cooperation in areas
such as aviation security. Aviation is important because Portuguese authorities have been slow to
agree to terms already implemented by other European Union members pursuant to the U.S.-
European Union aviation agreement of June 2010.

        The section has adequate staff, yet employees are not well deployed. This is a
consequence in part of front-office taskings and in part of the section chief’s failure to exercise
supervisory authority. Other sections and agencies rely unduly on the LE political assistant,
limiting her ability to carry out essential tasks such as Leahy processing and political reporting.
The front office routinely diverts officers to nonessential tasks outside their portfolios. The
officers then lack the time to conduct outreach in pursuit of priority goals. The embassy assigned
political staff to the majority of escort duty for a recent large construction project rather than
using cleared escorts. The section chief had not begun making plans to cover the additional
workload that will accrue when the Foreign Commercial Service eliminates an American staff
position in 2015.

       Informal Recommendation 2: Embassy Lisbon should review tasking procedures for the
       political/economic section to ensure that officers focus on policy priorities.

Records Management

         Embassy Lisbon has not maintained its files properly. Further, the political/economic
section does not place work products in shared section folders. The Foreign Affairs Manual
(FAM), in sections 5 FAM 433 a. and b., 5 FAM 443.2, 5 FAM 443.3, and 5 FAM 443.5,
requires that material, including electronic mail records, is to be preserved as official records and
retired in accordance with the appropriate records disposition schedule. Failure to maintain and
organize work products impedes information retrieval. Retaining a large amount of work
material in personal email folders is inefficient.

Recommendation 2: Embassy Lisbon should implement a system to maintain official records
in shared section files on the classified and unclassified systems. (Action: Embassy Lisbon)



                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Biographic and Leadership Records

        The political assistant maintains unclassified biographic information in an electronic
folder not accessible to other users. The protocol specialist maintains other biographic data. The
information held in the political/economic section is categorized incorrectly as personnel data
instead of according to the correct Department traffic analysis by geographic and subject terms
for host country biographies. The embassy can transfer unclassified biographic material to a
Portugal page of the Department’s Diplopedia intranet site, consistent with 2 FAM 113.3 b. (1)
guidelines, to make such information readily available to policymakers and embassy employees.

Recommendation 3: Embassy Lisbon should enter its unclassified biographic information on
the Department of State’s Diplopedia intranet system. (Action: Embassy Lisbon)

        As Mission Portugal’s staff develops contacts on the mainland, Madeira, and the Azores,
it can expand leadership reporting on influential persons in the various political parties, including
youth, and in economic and other spheres. Embassy Lisbon does not require biographic and
leadership reporting of everyone who does contact work, such as the public affairs and Ponta
Delgada staff.

       Informal Recommendation 3: Embassy Lisbon should include biographic reporting and
       leadership analysis responsibilities in the work requirements of all officers who have
       significant contact work.

Leahy Human Rights Case Vetting

        The political assistant coordinates the Leahy vetting program, which is intended to
preclude assistance to persons implicated in human rights violations. Department of State- and
Department of Defense-funded training and equipment can only be provided to properly vetted
entities and individuals. Based on Portugal’s record on human rights practices, the Department’s
Leahy working group designated Portugal for fast-track processing.

        Fast-track status allows local approval of trainees, but it requires specific record-keeping.
The International Vetting and Security Tracking database is the Department’s official system of
record for Leahy cases. In 2010, the Bureau of Democracy, Human Rights, and Labor directed
embassies in Europe, including in fast-track countries, to use it.

         The OIG team verified that the embassy and other agencies’ representatives reported that no
nominees had committed human rights violations. But the embassy has not exercised effective
oversight of the Leahy coordinator. Since April 2010, the coordinator has not had log-in access or
entered names into the Department’s designated database. Failure to provide this information makes
it difficult for the Department to substantiate compliance.

Recommendation 4: Embassy Lisbon should record all training nominees in the International
Vetting and Security Tracking database. (Action: Embassy Lisbon)

       Consistent with good management practices, the Bureau of Democracy, Human Rights,
and Labor recommends appointment of a primary and secondary Leahy coordinator. Each is
                                           6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

required to complete the Foreign Service Institute’s distance learning course, International
Vetting and Security Tracking system: Leahy Vetting at Post (PP-410). Only the coordinator at
Embassy Lisbon has completed the training.

Recommendation 5: Embassy Lisbon, in coordination with the Bureau of Democracy, Human
Rights, and Labor, should designate two coordinators for the Leahy vetting program and provide
each with training and authorization to use the International Vetting and Security Tracking
database. (Action: Embassy Lisbon, in coordination with DRL)

Commercial and Business Advocacy

        The Ambassador and his team energetically advocate U.S. economic and commercial
interests. His novel approach to promote Portugal as a gateway to U.S. companies seeking to do
business in Africa attracted more than 170 participants to a conference in Lisbon in May 2012
and generated U.S. firms’ interest, especially in Mozambique. He joined a Foreign Commercial
Service trade mission to the United States in April 2012 that led to a U.S. firm’s interest in
opening a branch in the Azores. The Ambassador also effectively raises the concerns of
individual U.S. companies and U.S. industry sectors with Portuguese officials.

Law Enforcement Working Group

        The regional security officer coordinates and chairs the law enforcement working group,
which meets on an ad hoc basis when regional representatives of law enforcement agencies, such
as those resident in Spain, visit Lisbon.

        The regional security office does not maintain the agendas and minutes of proceedings as
permanent records according to the Department’s traffic analysis by geography and subject
system. Failure to retain such information risks the loss of the information for use by current and
future embassy employees and prevents retrieval by Department users.

Recommendation 6: Embassy Lisbon should maintain official records of law enforcement
working group agendas and meeting minutes. (Action: Embassy Lisbon)

        The law enforcement working group has not included representatives of the consular
section or the political/economic section, which takes the lead in policy advocacy with the
Portuguese Government on law, justice, and governance issues. According to the Foreign
Affairs Handbook (FAH), 7 FAH-1 H-252.2 c., the consular chief should be included in meetings
of law enforcement working groups.

Recommendation 7: Embassy Lisbon should include representatives of the consular and
political/economic sections in the meetings of the law enforcement working group. (Action:
Embassy Lisbon)




                                           7
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Public Diplomacy
        A public affairs officer (PAO) directs the public affairs section (PAS), which includes an
assistant PAO and nine LE staff members. The PAO handles media responsibilities, serves as
embassy spokesperson, and oversees exchange programs. The assistant PAO manages the
program unit and the Information Resource Center, which includes an American Corners.

        The embassy proposed a PAS reorganization that would eliminate one local staff
position, consolidating press responsibilities and reducing salary costs. The Under Secretary for
Public Diplomacy and Public Affairs has directed that public affairs sections reach a 70 percent
to 30 percent ratio of fixed costs, including salaries, to program costs. PAS Lisbon’s fixed costs
are significantly higher than the target. The reorganization plan will save $70,000 annually
without sacrificing efficiency or capacity.

Recommendation 8: Embassy Lisbon, in coordination with the Bureau of European and
Eurasian Affairs and the Office of the Under Secretary for Public Diplomacy and Public Affairs,
should implement its proposed public affairs reorganization, including the elimination of one
locally employed staff position. (Action: Embassy Lisbon, in coordination with EUR and R/PPR)

        PAS is well integrated in the mission, and the Ambassador draws frequently on PAS to
support his public activities. Communication with Department public diplomacy staff is good.
Inside the section, the PAO holds regular staff meetings. Collaboration among the local staff is
mixed. The PAO has taken steps to improve the situation, establishing acceptable norms of
professional interaction. The OIG team believes her efforts adequately address the issue.

Press and Information Activities

       The PAO is the embassy spokesperson. Embassy officers observe a press policy that
channels media requests through PAS. The press unit produces media reporting including input
to a PAS Brussels product for Washington readers. The PAO provides a daily press brief to the
Ambassador. The unit also promotes coverage of embassy activities. The PAO and local staff
spend appropriate time sustaining contact with media personnel at all levels.

Information Resource Center and American Corners

       The Information Resource Center is located in PAS, which has moved from electronic
outreach to an arrangement relying on American Corners, which are program platforms housed
in seven Portuguese universities. The corners provide facilities for speakers and other embassy
programs. The heart of the corners operations is eLibraryUSA, which is a compendium of online
databases and information sources. Usage of eLibraryUSA is growing quickly.

Web Page and Social Media

       PAS manages the embassy Web page, which uses the Department’s content management
system. Local content on the Web page is dated and would be enhanced if additional embassy
sections provided content to PAS for posting.

                                           8
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



         Informal Recommendation 4: Embassy Lisbon should require appropriate sections of
         the mission to provide local content for the embassy Web page.

        PAS has a social media strategy to enhance its cyber space presence. The section’s
primary vehicle is its Facebook page. Twitter usage in Portugal is minimal but growing, and the
plan takes that into account. PAS currently uses YouTube, and training on the use of social
media will increase the section’s capacity.

Educational and Cultural Exchanges

Exchange Programs

        The International Visitor Leadership Program functions smoothly. PAS has taken
advantage of incentive funding from the Bureau of Educational and Cultural Affairs to augment
the slate of eight nominees and supplemented this modest allotment by using the Voluntary
Visitor Program.

Fulbright Program

        A bilateral commission runs the Fulbright program. The PAO sits on the board, and the
assistant PAO serves as treasurer. The board is seeking to address budget shortfalls, due in part
to a reduced contribution from the Portuguese Government. The Department approved a revised
Fulbright agreement; at the time of the inspection, the Government of Portugal had not yet
approved it. A committee on the standing bilateral commission handles Fulbright matters,
including the agreement. The embassy’s environment, science, technology, and health officer
represents the embassy on the committee. The PAO, however, sits on the Fulbright board, is
responsible for liaison between the Bureau of Educational and Cultural Affairs and the
commission, and supervises the treasurer. These titular duties put the PAO in a stronger position
to represent Fulbright on the bilateral commission.

         Informal Recommendation 5: Embassy Lisbon should reassign to the public affairs
         officer responsibility for Fulbright matters on the standing bilateral commission.

Administration

        An LE staff member handles administrative duties. Liaison with embassy sections is
effective. The PAO established in-house training sessions on topics including budget, grants
administration, and contact management software.

Grants

        PAS will disburse approximately $160,000 in grants in FY 2012, $70,000 of which will
sustain the American Corners. The PAO has a valid grants warrant. The assistant PAO took the
grants course but did not obtain a warrant. In the PAO’s absence, no one in PAS can sign a grant.


                                           9
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 6: Embassy Lisbon should require that the assistant public
       affairs officer obtain a grants warrant.

        Grants files follow Department regulations and are well kept, although some lacked a
final program report. During the inspection, PAS initiated an effort to obtain the missing reports.
PAS grants are tied to mission policy goals. An excessive proportion of the grants, however,
tended to support the goal of developing Portuguese support for U.S. policies. Spreading the
grants in support of additional goals, especially economic and specific political goals, will
strengthen the grants’ impact.

       Informal Recommendation 7: Embassy Lisbon should distribute public diplomacy
       grants appropriately in support of all mission goals.




                                          10
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Consular Operations
       The consular team provides excellent customer services but is overstaffed. Although the
Department recently cut three consular LE staff positions from the mission, further reductions
are warranted. A review of consular operations found them to be good with the exception of cash
accountability at the consular agency in Funchal, Madeira. The section does not meet as a whole
frequently enough, which is reflected in poor strategic vision and planning. The consul general
was counseled to hold more formal meetings with his staff.

        The section is located in a spacious area of the embassy three flights of stairs below the
basement of the chancery, which is built into a steep hill. The facilities manager requested an
elevator to comply with the Americans with Disabilities Act. The elevator is slated for 2013
funding and installation. While the workspace is ample, the temperature controls in the public
waiting area are unsatisfactory. Employees report that waiting areas are hot in the summer and
cold in the winter.

        Informal Recommendation 8: Embassy Lisbon should monitor the temperature of the
        visa waiting room to ensure that it remains within acceptable standards.

         The section comprises two American officers and seven LE staff members. The section
is also responsible for a five-person federal benefits unit, which is fully reimbursed by the Social
Security Administration and is supervised by its regional office in Rome.

        The section did not hold a consular leadership day in 2012, and the section has not done
any strategic planning or teambuilding off-sites recently. Formal staff meetings are rare, because
the section is so small that managers believe they interact frequently enough in the normal course
of business.

        Informal Recommendation 9: Embassy Lisbon should schedule and hold regular
        consular staff meetings and a yearly consular teambuilding leadership event.

American Citizens Services

         Lisbon serves American citizens well. During the inspection, the team saw a distressed
tourist receive an emergency replacement passport within 1 hour. The generously staffed unit has
four LE staff members, including a special advisor/attorney.

Visas

        Lisbon has several employees who process on average only 25-30 nonimmigrant visas a
day. Since the Bureau of Consular Affairs removed immigrant visa workload from Lisbon in
June 2012, it eliminated one LE staff position in the visa unit. Other section staff, including the
secretary, assists the two remaining employees in the visa unit to process nonimmigrant visas.
The consular section had not updated the position descriptions of the LE staff members whose
duties had been changed when Lisbon stopped processing immigrant visas.


                                          11
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        Informal Recommendation 10: Embassy Lisbon should rewrite and reclassify the
        position descriptions of the locally employed staff members with visa responsibilities.

William Wilberforce Counseling

        The embassy has a pamphlet outlining workers’ rights as required by the William
Wilberforce Trafficking Victims Protection Act, but it does not use it in all cases. Guidance in 9
FAM 41.21 N6.5-2 requires that the interviewing officer notify the applicant and make a record
of the notification in the case notes. A review of adjudications shows that non-Portuguese
applicants and those for executive or managerial positions were not being counseled regularly.

Recommendation 9: Embassy Lisbon should implement a mechanism to ensure that visa
interviewing officers counsel all applicants for work visas regarding their rights as temporary
workers in the United States and record the discussion in the case notes. (Action: Embassy
Lisbon)

Visas Viper

        Embassy Lisbon’s Visas Viper committee meets regularly and reports follow the required
format. However, submissions for the past 12 months show that the embassy submitted half of
the required reports after the deadline prescribed in 9 FAM 40.37 N5.2.a.

Recommendation 10: Embassy Lisbon should submit its Visas Viper reports in accordance with
Department of State guidelines. (Action: Embassy Lisbon)

Fraud

        Embassy Lisbon operates in a low-fraud environment but has not performed any visa
validation studies, or annual reviews of referrals, as required by 9 FAM Appendix K 105 d.
Validation studies are valuable tools to give adjudicating officers feedback on their decisions.

        Informal Recommendation 11: Embassy Lisbon should perform annual validation
        studies of its visa issuances, including referral cases.

Consular Agency Funchal

        The consular agency on the island of Madeira has been serving U.S. citizens for
centuries. Until April 2012, the agency had three half-time employees: an agent and two consular
assistants. In FY 2011, the three half-time employees processed six special consular services and
20 passports and overseas birth certifications. While a small notarial business added marginally
to the workload, services to U.S. citizens averaged two a month. The Bureau of Consular Affairs
eliminated two assistant positions in early 2012, but retaining the agent is not justified given the
small workload. Closing the consular agency will yield $75,000 in yearly savings.

Recommendation 11: The Bureau of Consular Affairs, in coordination with the Bureau of
European and Eurasian Affairs, should close the Funchal, Madeira, consular agency. (Action:
CA, in coordination with EUR)
                                          12
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Consulate Ponta Delgada
        Significant changes are required at this overstaffed consulate in the Azores archipelago,
900 miles west of mainland Portugal. Life in this isolated outpost is difficult. There is no
expatriate community, no international schools, no employment opportunities, monotonous
weather, and few diversions. The embassy has correctly requested that the Department reduce
the tour of duty from three years to two. The consulate provides various consular services, public
outreach, and diplomatic representation to the Azores. A region that has seen traditional
migration to the United States, the Azores harbors thousands of American citizens who have
returned to retire; a million of their descendents still reside in the United States. The primary
political issue for the consulate is the status of the U.S. Air Force base at Lajes Field, Terceira
Island. This outpost, which has long served as a refueling station, is being reconfigured to reflect
changing global realities.

        The consulate has two U.S. direct-hire officer positions, but the Bureau of Consular
Affairs has not filled the vice consul position in the past year. In addition, the Bureau of
Consular Affairs moved immigrant visa processing from Portugal to Paris, France, on June 1,
2012. In the 12 months starting on June 16, 2011, Consulate Ponta Delgada only adjudicated 245
nonimmigrant visa cases. Embassy Lisbon could process these visas.

Recommendation 12: The Bureau of Human Resources, in coordination with the Bureaus of
Consular Affairs and European and Eurasian Affairs, should eliminate the vice consul position
number 30015004 in Ponta Delgada. (Action: DGHR, in coordination with CA and EUR)

Recommendation 13: Embassy Lisbon, in coordination with the Bureau of Consular Affairs,
should transfer responsibility for nonimmigrant visa processing for the residents of the Azores to
Embassy Lisbon. (Action: Embassy Lisbon, in coordination with CA)

        The present LE staff of five consular and management employees is excessive for
providing non-visa consular services, diplomatic representation, and public outreach. One
American citizens services employee and one protocol/management LE employee, cross-trained
in each other’s specialty, would be sufficient.

Recommendation 14: Embassy Lisbon, in coordination with the Bureaus of Human Resources,
Consular Affairs, and European and Eurasian Affairs, should eliminate the locally employed visa
position number N31049 at Consulate Ponta Delgada. (Action: Embassy Lisbon, in coordination
with DGHR, CA, and EUR)

        Management support for the consulate is good, but procurement clerks have never been
trained in that function. It is more cost effective to have general services staff in Lisbon provide
that support. The same is true for the information technology and Class B cashiers. Most
management functions are better handled by experienced and trained staff in Lisbon. With fewer
employees, the consulate will not need a driver or a second vehicle.

Recommendation 15: Embassy Lisbon, in coordination with the Bureaus of Human Resources
and European and Eurasian Affairs, should eliminate the locally employed driver position

                                          13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

number A30147 at Consulate Ponta Delgada. (Action: Embassy Lisbon, in coordination with
DGHR and EUR)

Recommendation 16: Embassy Lisbon, in coordination with the Bureaus of Human Resources
and European and Eurasian Affairs, should eliminate the locally employed information
technology position number A50105 at Consulate Ponta Delgada. (Action: Embassy Lisbon, in
coordination with DGHR and EUR)

        The consulate warehouse contains a significant amount of furniture and other goods that
are not likely to be used in the foreseeable future. In addition, with the transition to a smaller
footprint, the consulate will only need one vehicle.

       Informal Recommendation 12: Embassy Lisbon should sell Consulate Ponta Delgada’s
       excess property.

       As the consulate evolves, it will need considerably less space. Reducing the square
footage of the consulate would provide savings in security enhancements.

       Informal Recommendation 13: Embassy Lisbon should examine options for housing the
       streamlined consulate and implement the most cost-effective solution.

Cost Savings

        Eliminating three LE staff positions will yield a savings of $180,000 after separation
expenses. Reducing the footprint of the office could yield savings of up $90,000 a year or almost
half of the current lease. The actual amount depends of the configuration of the new office and
negotiations with the landlord. There could also be accrued savings of up to half of other
miscellaneous expenses, such as utilities and transportation, which could yield another $75,000 a
year.




                                          14
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Resource Management
              Agency                     U.S.       U.S.          Local       Total     Total
                                        Direct-    Local-         Staff       Staff    Funding
                                       Hire Staff Hire Staff                           FY 2011
Department of State
 Diplomatic and Consular Programs              24            4         22        50     $4,351,800
 International Cooperative                      3            8         59        70      6,669,900
 Administrative Support Services
 Public Diplomacy                               2            1            9      12      1,068,525
 Diplomatic Security                            4            1            5      10      1,014,339
 Marine Security Guard                          8                                 8        230,410
 Representation                                                                             52,300
 Overseas Buildings Operations                  1                                 1      2,069,625
Department of Defense
 Defense Attaché Office                         6                         4      10       548,010
 Office of Defense Cooperation                  4                         2       6       859,000
Drug Enforcement Administration                 3                                 3       159,803
Customs and Border Protection                   1                                 1        60,595
Foreign Commercial Service                      1                       5         6       605,008
Totals                                         57           14        106       177   $17,689,315

Management Section

       The management section has significantly improved since the 2003 OIG inspection and
2004 OIG compliance followup review. The section responds well to requests from its clients,
and customer satisfaction scores are slightly above global averages. However some issues have
not been addressed adequately. These include updating position descriptions and organization of
mission LE staff, use of the automotive shop in the basement of the chancery, and travel voucher
processing.

General Services

         An experienced general services officer leads the office. The section is staffed with
knowledgeable local employees; many have been with the embassy for more than 25 years. Each
unit, including procurement, customs and shipping, maintenance, motor pool, is adequately
staffed.

Motor Pool

      The embassy has four International Cooperative Administrative Support Services
(ICASS) drivers and one ambassadorial driver. Three Marine security guard drivers report to the

                                         15
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

regional security officer. Contrary to 15 FAM 957.3 and 14 FAM 431.2-2 (1), the Ambassador’s
driver is usually on duty more than 10 hours daily.

Recommendation 17: Embassy Lisbon should limit the hours of duty for the Ambassador’s
driver in accordance with Department of State regulations. (Action: Embassy Lisbon)

Facilities

        Facilities management is responsible for three U.S. Government-owned properties, which
are old and require constant attention. For example, a 17th-century chapel on the chancery
grounds has cracking and separating walls. The chapel houses valuable Portuguese tiles and
burial sites. The Manor House, another historical building that accommodates the cafeteria and
Marine House, also requires vigilant attention.

Automotive Shop

        The embassy’s automotive shop is in the chancery basement. The risk of fire is a life-
safety concern that outweighs the convenience of an on-site vehicle maintenance shop. While
paint and other flammable supplies are stored outside of the basement, having a full-service
automotive repair and mechanical shop in the chancery basement creates other unacceptable
risks. The fumes from automotive repairs reach the executive and other controlled access areas
on the third floor.

Recommendation 18: Embassy Lisbon should move the automotive repair shop outside of the
chancery. (Action: Embassy Lisbon)

       Employees regularly walk through the basement and the repair shop to get to the consular
and public affairs sections. This practice disrupts staff.

         Informal Recommendation 14: Embassy Lisbon should issue a management notice
         instructing staff that the basement repair shops are not a thoroughfare.

Financial Management

        The financial management unit performs adequately. In 2011 it managed allotments
totaling $17 million. The unit provides vouchering, accounting, budgeting, and cashiering
services and generally complies with Department management controls. Scores on the ICASS
customer satisfaction survey are on par with the geographic bureau and with worldwide
averages. Scores on OIG’s workplace and quality of life questionnaire were also satisfactory.
The Management Controls section of this report addresses several significant internal control
shortcomings.

Travel

        Carlson Wagon Lit is the embassy’s travel provider. Low customer satisfaction has
forced the embassy to consider outsourcing its travel needs to the Embassy Warsaw, Poland. The
Management Controls section of this report discusses internal controls in travel expenditures.
                                         16
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Portuguese Social Security Contributions

        The embassy has underreported earnings and underpaid local social security taxes for
decades. The situation is a distraction for many local staff and has hurt morale. The embassy
failed to ensure that reported earnings and related taxes paid to social security reconciled with
amounts the Department generated and reported to employees on their earnings and leave
statements. The embassy asked local staff to compare their prior-year earnings records with their
Portuguese social security statements and inform the embassy about discrepancies. The embassy
pays the employers’ share of taxes, penalties, and interest when underreporting is identified.

Recommendation 19: Embassy Lisbon should engage an independent public accountant to
determine whether it is correctly reporting local employee earnings and Portuguese social
security taxes. (Action: Embassy Lisbon)
                                                                (b) (5)      (b) (5)
        The Class B cashier and subcashiers receive bonuses of euros and         euros per month,
respectively. Local law requires those payments and they are part of the local compensation plan,
but the payments are not processed by the Department’s payroll system. As a result, the embassy
is not deducting local social security contributions from these amounts, which risks
compounding the existing problem with the contribution levels of the local social security
system.

Recommendation 20: Embassy Lisbon should submit cashier and subcashier bonuses to the
Department of State’s payroll system for payment. (Action: Embassy Lisbon)

International Cooperative Administrative Support Services

       The ICASS process operates well. Customer satisfaction scores are slightly above
regional and worldwide averages. A current comprehensive self-assessment demonstrates
appropriate cooperation between the council and the management section. The assessment
addressed support factors and defined weak areas. The embassy has made considerable
improvements to meet uniform service standards.

Human Resources

        The human resources office provides good customer service and scored well above
average on the OIG workplace and quality of life questionnaire despite some dissatisfaction with
family member employment, which is addressed in the Quality of Life section of this report.
Human resources deficiencies are addressed below and in the Management Controls section of
this report.

        There are several areas where the LE positions may be overgraded and employees less
than fully employed. In some cases, it is because position descriptions of the employees have
evolved over time to reflect the attributes of the employee rather than the requirements of the
position. The mission has been working with the Frankfurt Regional Support Center on
reorganizing the management section. The OIG team believes that the issue is broader than
management. It is important that sections are coherently organized and that job descriptions
accurately reflect the requirements of the position.
                                         17
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Recommendation 21: Embassy Lisbon, in coordination with the Bureau of European and
Eurasian Affairs, should evaluate and reorganize, as necessary, its entire locally employed staff.
(Action: Embassy Lisbon, in coordination with EUR)

Performance Management

        All Foreign Service performance evaluations were completed and recorded in the
ePerformance system on time. However, the embassy did not complete LE staff performance
evaluations on time, and many position descriptions are not current. Raters are obligated to
ensure that position descriptions are current with performance evaluations.

Recommendation 22: Embassy Lisbon should require raters to update position descriptions of
local staff annually and require that performance evaluations be completed on time. (Action:
Embassy Lisbon)

Training

        The embassy’s training program does not include sufficient information on LE staff
training. Consequently, supervisors cannot determine the status of workforce development and
the embassy cannot appropriately direct its limited training resources.

       Informal Recommendation 15: Embassy Lisbon should develop a database for local
       employees’ training.

Hiring Authority

       The embassy assisted the U.S.-NATO Allied Joint Force Command Lisbon to hire three
LE staff members using the Department’s personal services agreement authority. It is unclear
whether these employees are under chief of mission authority. The OIG team learned that
although the unit is not under chief of mission authority for force protection and security, the
memorandum of agreement is not clear regarding authority for other administrative actions.

        The embassy reportedly provided this service through its ICASS function because Allied
Joint Force Command Lisbon believes it does not have hiring authority. Thus, the command pays
into ICASS for administrative functions. Policy under 3 FAM 7111.2 allows using the
Department’s personnel regulations and guidelines to agencies and establishments when they are
under chief of mission authority, which is not clear in this instance.

Recommendation 23: The Bureau of Human Resources should provide policy interpretation
and procedural guidance to Embassy Lisbon on how to support the Allied Joint Force Command
Lisbon’s administrative needs. (Action: DGHR)

Communicating with Local Staff

      The 2003 OIG inspection reported that communication between local staff and embassy
management was poor. The embassy has since improved new employee orientation,
                                          18
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

communications, and Equal Employment Opportunity procedures. Representatives from the
Bureau of Human Resources, Office of Overseas Employment visited the embassy in July 2011
and conducted a town hall that addressed local staff’s concerns about wages and transparency.

      A local staff committee has not existed for years. Instead, a “dialogue group” meets with
management periodically, which appears to be satisfactory.

Language-Designated Positions

        Five of the embassy’s 22 language-designated positions are improperly classified. None
of the five require Portuguese language skills.

        In 2010, the embassy inaccurately certified to the Department that several positions
required language ability. Three incumbents in two successive assignment cycles were given
language waivers. In a fourth case, the embassy has been disadvantaged by an extended vacancy
of an information management (IM) specialist (position No. 55124000) because of the effort to
recruit and train a specialist at the required language level. Additionally, the financial
management/human resources officer reported that Portuguese was not essential for his position.
His predecessor arrived with a waiver and served 3 years without language ability.

         The inspection team observed that the management counselor, general services officer,
facilities manager, and finance management/human resources officer work effectively without
the designated competence in Portuguese. It is costly and contrary to regulation for the
Department to train employees for language-designated positions when the language is not
essential (13 FAM 221 b.). Each Portuguese language-designated position costs a minimum of
$105,000.

Recommendation 24: Embassy Lisbon, in coordination with Bureau of European and Eurasian
Affairs and the Bureau of Human Resources, should eliminate the language designation for the
positions numbered 52103000, 52326601, 55124000, 53152000, and 50028000. (Action:
Embassy Lisbon, in coordination with EUR and DGHR)

Information Management and Information Security

       Embassy Lisbon’s IM program meets mission needs. ICASS and OIG survey
questionnaires reflect high customer satisfaction. The operation would be strengthened by a more
collaborative style on the part of the IM officer. The OIG team counseled him on effective
communication with his staff.

        The OIG team reviewed operational and security aspects of the program and found that
they adhere to Department guidelines. However, the team identified several areas that require
attention. These include reclassifying a position in the information programs center, separating a
dedicated Internet network, improving diplomatic mail operations, and reinforcing telephone
operator support.




                                          19
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Information Programs Center

        Chronic staffing gaps in direct-hire positions have been a hardship on the section. During
the inspection the section was staffed by only one of the two FS-04 designated specialists. He
has addressed long-neglected areas but more remains to be done. The OIG team concluded that
the IM specialist position number 55124000 does not reflect the required experience level.

Recommendation 25: Embassy Lisbon, in coordination with the Bureau of European and
Eurasian Affairs, should reclassify position number 55124000 as a manager. (Action: Embassy
Lisbon, in coordination with EUR)

Pouch Escort Duties

        The current mission guidance requires all sections to participate in the duty roster for
classified pouch escort. Typically, in a midsized mission, only those offices who normally
receive items in the pouch are responsible for escort duties. Lisbon’s classified pouch escort duty
policy should only require offices that regularly use the classified pouch to participate.

       Informal Recommendation 16: Embassy Lisbon should revise the duty schedule for the
       classified pouch escort duty to include only mission offices that regularly use the
       classified pouch.

Diplomatic Mail

        Two mail clerks pick up the diplomatic postal mail daily from the airport, and two other
local employees pick up the unclassified pouch, though less frequently. Pouch mail will often sit
at the airport awaiting pickup for several days. Authorizing the mail staff to collect the pouch
bags would be timely and cost-effective. Resolution of this issue requires action by the
Portuguese Government.

Recommendation 26: Embassy Lisbon should collect diplomatic pouch bags upon their arrival
and customs clearance. (Action: Embassy Lisbon)

Dedicated Internet Network

        Embassy Lisbon’s dedicated Internet network does not comply with Department
regulations. It shares the circuit that operates the OpenNet network. Department regulations (5
FAM 872.1) mandate that the two networks not be physically connected. When they are not
separated, a dedicated Internet network can divert IM resources from the OpenNet network.

Recommendation 27: Embassy Lisbon should establish a separate connection for the dedicated
Internet network. (Action: Embassy Lisbon)

Telephone Operator

        An operator handles telephone duties with support from other employees. The operator
also provides daily mailroom support, which leads to a significant percentage of incoming calls
                                          20
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

being missed. Typically, a mission the size of Embassy Lisbon has at least two dedicated
telephone operators. An additional full-time operator position is warranted.

Recommendation 28: Embassy Lisbon should establish a full-time telephone operator position.
(Action: Embassy Lisbon)

        The embassy does not have procedures to address consular-related calls, which represent
the majority of calls. The operator directs callers to the consular section Web site. The consular
section does not have written instructions for responding to consular calls.

       Informal Recommendation 17: Embassy Lisbon should provide the telephone operators
       with procedures for responding to consular-related calls.




                                          21
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Quality of Life
        Morale has improved since the last OIG inspection in 2003. In sharp contrast to the
isolation of the Azores, life in mainland Portugal is very pleasant, and the mission’s support
structure effectively provides for employees and the families. The U.S. Navy Exchange and the
U.S. Government Employees Cooperative Association of Lisbon provide services that include an
exchange/commissary and a gift shop. The Lisbon Environmental and Humanitarian Outreach
program encourages volunteerism within the embassy. It has worked with Habitat for Humanity
to build and renovate houses, plant trees, and perform other community service activities.

Health Unit

        The health unit, comprised of a nurse and part-time physician, provides excellent medical
services. Regular visits from Embassy London’s regional medical officer and psychiatrist are
important parts of the health program. Many Portuguese physicians do not speak English; hence,
there is a need for regular email and telephone contact with Embassy London. The medical staff
there is responsive.

Community Liaison Office

        The community liaison office coordinator identifies social and office sponsors, welcomes
new staff, and helps them establish ties to the American School. The coordinator expects to share
her job with a second coordinator shortly, with each working 32 hours a week.

Family Member Employment

        Family member hiring is a challenge in the present budget environment and because of
local language requirements. The OIG team evaluated five eligible family member appointments
and found an open and fair hiring process. Very few applicants applied for these positions.
Opportunities in the local economy are few despite a bilateral work agreement because few
companies in Lisbon can use English-only speakers. In addition, some of the embassy positions
require Portuguese language skills that are not reflective of the actual activities.

        Informal Recommendation 18: Embassy Lisbon should reevaluate language
        requirements for local-hire positions to ensure they accurately reflect the needs of the job.

       In an effort to provide more local employment opportunities, and to meet a shortage in
cleared escorts, the embassy plans to hire two family members as escorts.
(b)(5)(b)(6)

        (b)(5)(b)(6)                                                                         (b)(5)(b)(6)
                                                          some 30 minutes from Lisbon,
(b)(5)(b)(6)                       As of 2011, it was fully accredited by the New England
Association of Schools and Colleges and recognized by the Portuguese Ministry of Education.



                                          22
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


U.S. Government Employees Cooperative Association of Lisbon

        The U.S. Government Employees Cooperative Association of Lisbon operates a gift
shop, cafeteria, and child care center. It receives payments from a U.S. Navy Exchange
commissary on the embassy compound. OIG questionnaires indicate satisfaction with the food
service and the child care center. Interim financial reporting indicates that the newly incorporated
cafeteria is able to operate as a self-supporting unit.

         Current audit requirements have been met and the association’s financial position is
sound. The association, however, does not provide for severance pay by designating a specific
cash account for severance that 6 FAM 531.3 requires. Also, the association does not record
accrued employee severance payable in its general ledger accounts nor otherwise reflect the
liability in its financial statements. Without this visibility, the association may fail its obligations
to departing employees.

Recommendation 29: Embassy Lisbon should require that the U.S. Government Employees
Cooperative Association of Lisbon designate funds for its severance liability and record accrued
employee severance payable in its general ledger accounts. (Action: Embassy Lisbon)




                                           23
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Management Controls
        The chief of mission statement of management controls, dated July 22, 2011, states that
Embassy Lisbon’s system of management controls, taken as a whole, complies with the
standards prescribed by the Comptroller General of the United States. The statement notes that
embassy assets are generally safeguarded against waste, loss, unauthorized use, and
misappropriation. It also reported a significant deficiency in inventory controls and provided a
corrective action plan. The deficiency was corrected and losses were avoided; however, the OIG
team found significant weaknesses that need attention.

Travel Voucher Procedures

        The financial management office does not adequately document official travel in the E2
Solutions travel application. Also, there is poor coordination between the travel voucher
processor and the travel arrangers. As a result, the OIG team could not determine whether all
official travel was reasonable and in accordance with Department regulations. Travel
authorization approvals and voucher certifications were based on information that was not saved
in the E2 Solutions software. For example, air travel was not always documented with itineraries
and airline receipts; thus, it was not possible to readily determine whether the mode and routing
of transportation was appropriate. In addition, the purpose of official travel was not always
clearly indicated in the E2 Solutions documentation.

       During the inspection, the embassy reviewed all of the Ambassador's travel vouchers
from April 2010 until June 2012 and shared that review with the OIG team and the regional
bureau. The review showed that the Ambassador occasionally received actual expenses
reimbursement without a justification as required by 14 FAM 576.1 b. The review also
highlighted the need to update lodging reimbursement rates in Porto, Portugal, which is a
frequent destination of embassy travelers.

Recommendation 30: Embassy Lisbon should issue a management instruction on travel
authorization and voucher policies and procedures, delineating the use of actual expenses and the
need for careful documentation of any personal deviations to authorized travel. (Action:
Embassy Lisbon)

Time and Attendance

       The management officer is charged under 4 FAH-3 H-525.1-2 to establish controls for
accurate and timely recording and reporting of time and attendance. The embassy does not have
relevant time and attendance program documentation and has not evaluated its time and
attendance process as outlined in 4 FAH-3 H-519.3-9 a., which requires that periodic risk
assessments of payroll operations be conducted in accordance with the Department’s
Management Control Program. Timekeepers record their own time and attendance contrary to
guidelines in 4 FAH-3 H-525.3-4. One supervisor approved his/her own records even though 4
FAH-3 H-523.1 requires the approvals from a supervisor who has not recorded the data.


                                         24
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 31: Embassy Lisbon should conduct and document a management control
review of its time and attendance system and issue an appropriate management notice. (Action:
Embassy Lisbon)

Recommendation 32: Embassy Lisbon should establish procedures to ensure timekeepers do
not record their own time and attendance data and supervisors do not approve their own records.
(Action: Embassy Lisbon)

Accounts Receivable

       Contrary to 4 FAM 232.1-1 c., Embassy Lisbon does not have a centralized accounts
receivable system in place and no system for billing and tracking payments for personal phone
usage. As a result, the embassy does not efficiently collect the funds it is owed.

Recommendation 33: Embassy Lisbon should establish an accounts receivable system in the
financial management unit. (Action: Embassy Lisbon)

Cashier Controls

        The mission’s seven subcashiers do not periodically reconcile their advances as required
by 4 FAH-3 H-397.2-3 a. Two advances that require monthly reconciliations have been
scrutinized only four times in the last 12 months, which means that errors, embezzlement, and
misuse may go undetected. According to 4 FAH-3 H-397.2-3 e. and f., U.S. citizen supervisors
of subcashiers must ensure that verifications are done, and the financial management officer is
responsible for assisting with any difficulties in obtaining verifications.

Recommendation 34: Embassy Lisbon should issue a management notice instructing
supervisors of subcashiers to comply with requirements for monthly or quarterly unannounced
cash verifications and financial management officer monitoring. (Action: Embassy Lisbon)

Recommendation 35: Embassy Lisbon should update work requirements statements for
supervisors of subcashiers to reflect requirements to conduct cash verifications. (Action:
Embassy Lisbon)

Internal Revenue Service Reporting

        The financial management office does not report to grantees, on the Internal Revenue
Service Form 1099, payments exceeding $600 per year. Also, it does not report these payments
to the Internal Revenue Service. The reporting requirements are documented in the Internal
Revenue Service publication, 2012 General Instructions for Certain Information Returns.

Recommendation 36: Embassy Lisbon should report payments exceeding $600 per year to
grantees and to the Internal Revenue Service. (Action: Embassy Lisbon)




                                         25
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Performance Management

        Embassy Lisbon’s system for local staff performance evaluations has not been successful.
Supervisors characteristically disregard their responsibilities under 3 FAH-2 H-135.5. In the past
year, supervisors have submitted late performance documents for 98 of 117 LE staff members.
Retroactive step increases were necessary for 56 LE staff members to rectify late evaluations.

Recommendation 37: Embassy Lisbon should include a work requirement for supervisors of
locally employed staff members to complete locally employed staff performance evaluations and
work requirements statements on time and rate the supervisors based on their conformance to
this standard. (Action: Embassy Lisbon)

Tablet Computing

        PAS recently purchased two tablet computers, but the mission does not have a policy
establishing appropriate management controls for them. The OIG team identified a template
memorandum that addresses the use and support of these units.

       Informal Recommendation 19: Embassy Lisbon should establish management controls
       for all tablet computers.




                                         26
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Consular Management Controls

        Embassy Lisbon consular management controls were in good shape. Required
documentation of accountability is current. The only area for improvement was that the second
backup consular cashier does not have sufficient recent experience. A best practice is to rotate
cashier duties regularly so that the backup can stay current with the software.

       Informal Recommendation 20: Embassy Lisbon should rotate consular cashier duties to
       ensure that all cashiers stay current and knowledgeable.

Consular Agency Funchal

       Accountability of the consular agency in Funchal is not up to speed. This report makes a
recommendation to close the agency, but until that is done the embassy and the agency must
follow 7 FAH guidelines on consular accountability. Specifically, use of Optional Form 158,
which is issued by the Class B cashier in Lisbon but is not being promptly processed and
returned to Funchal.

Recommendation 38: Embassy Lisbon should require that consular cash deposits for the
Funchal consular agency are promptly recorded on Optional Form 158 and the form immediately
transmitted to the consular agency. (Action: Embassy Lisbon)

       Partially as a result of the delay in processing the Optional Form 158 receipts, the daily
accounting sheets in Funchal are not being process in a timely fashion. This delay decreases
accountability and increases the vulnerability of the U.S. Government to fraud.

Recommendation 39: Embassy Lisbon should promptly process the monthly Daily Accounting
Sheet reports for the consular agency in Funchal and immediately transmit them to the consular
agency. (Action: Embassy Lisbon)
       (b) (5)




Recommendation 40: (b) (5)




                                          27
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Lisbon should eliminate the Ambassador’s staff assistant
position and return the incumbent to duty in the political/economic section. (Action: Embassy
Lisbon)

Recommendation 2: Embassy Lisbon should implement a system to maintain official records
in shared section files on the classified and unclassified systems. (Action: Embassy Lisbon)

Recommendation 3: Embassy Lisbon should enter its unclassified biographic information on
the Department of State’s Diplopedia intranet system. (Action: Embassy Lisbon)

Recommendation 4: Embassy Lisbon should record all training nominees in the International
Vetting and Security Tracking database. (Action: Embassy Lisbon)

Recommendation 5: Embassy Lisbon, in coordination with the Bureau of Democracy, Human
Rights, and Labor, should designate two coordinators for the Leahy vetting program and provide
each with training and authorization to use the International Vetting and Security Tracking
database. (Action: Embassy Lisbon, in coordination with DRL)

Recommendation 6: Embassy Lisbon should maintain official records of law enforcement
working group agendas and meeting minutes. (Action: Embassy Lisbon)

Recommendation 7: Embassy Lisbon should include representatives of the consular and
political/economic sections in the meetings of the law enforcement working group. (Action:
Embassy Lisbon)

Recommendation 8: Embassy Lisbon, in coordination with the Bureau of European and
Eurasian Affairs and the Office of the Under Secretary for Public Diplomacy and Public Affairs,
should implement its proposed public affairs reorganization, including the elimination of one
locally employed staff position. (Action: Embassy Lisbon, in coordination with EUR and R/PPR)

Recommendation 9: Embassy Lisbon should implement a mechanism to ensure that visa
interviewing officers counsel all applicants for work visas regarding their rights as temporary
workers in the United States and record the discussion in the case notes. (Action: Embassy
Lisbon)

Recommendation 10: Embassy Lisbon should submit its Visas Viper reports in accordance
with Department of State guidelines. (Action: Embassy Lisbon)

Recommendation 11: The Bureau of Consular Affairs, in coordination with the Bureau of
European and Eurasian Affairs, should close the Funchal, Madeira, consular agency. (Action:
CA, in coordination with EUR)

Recommendation 12: The Bureau of Human Resources, in coordination with the Bureaus of
Consular Affairs and European and Eurasian Affairs, should eliminate the vice consul position
number 30015004 in Ponta Delgada. (Action: DGHR, in coordination with CA and EUR)

                                          28
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 13: Embassy Lisbon, in coordination with the Bureau of Consular Affairs,
should transfer responsibility for nonimmigrant visa processing for the residents of the Azores to
Embassy Lisbon. (Action: Embassy Lisbon, in coordination with CA)

Recommendation 14: Embassy Lisbon, in coordination with the Bureaus of Human
Resources, Consular Affairs, and European and Eurasian Affairs, should eliminate the locally
employed visa position number N31049 at Consulate Ponta Delgada. (Action: Embassy Lisbon,
in coordination with DGHR, CA, and EUR)

Recommendation 15: Embassy Lisbon, in coordination with the Bureaus of Human Resources
and European and Eurasian Affairs, should eliminate the locally employed driver position
number A30147 at Consulate Ponta Delgada. (Action: Embassy Lisbon, in coordination with
DGHR and EUR)

Recommendation 16: Embassy Lisbon, in coordination with the Bureaus of Human Resources
and European and Eurasian Affairs, should eliminate the locally employed information
technology position number A50105 at Consulate Ponta Delgada. (Action: Embassy Lisbon, in
coordination with DGHR and EUR)

Recommendation 17: Embassy Lisbon should limit the hours of duty for the Ambassador’s
driver in accordance with Department of State regulations. (Action: Embassy Lisbon)

Recommendation 18: Embassy Lisbon should move the automotive repair shop outside of the
chancery. (Action: Embassy Lisbon)

Recommendation 19: Embassy Lisbon should engage an independent public accountant to
determine whether it is correctly reporting local employee earnings and Portuguese social
security taxes. (Action: Embassy Lisbon)

Recommendation 20: Embassy Lisbon should submit cashier and subcashier bonuses to the
Department of State’s payroll system for payment. (Action: Embassy Lisbon)

Recommendation 21: Embassy Lisbon, in coordination with the Bureau of European and
Eurasian Affairs, should evaluate and reorganize, as necessary, its entire locally employed staff.
(Action: Embassy Lisbon, in coordination with EUR)

Recommendation 22: Embassy Lisbon should require raters to update position descriptions of
local staff annually and require that performance evaluations be completed on time. (Action:
Embassy Lisbon)

Recommendation 23: The Bureau of Human Resources should provide policy interpretation
and procedural guidance to Embassy Lisbon on how to support the Allied Joint Force Command
Lisbon’s administrative needs. (Action: DGHR)

Recommendation 24: Embassy Lisbon, in coordination with Bureau of European and Eurasian
Affairs and the Bureau of Human Resources, should eliminate the language designation for the
positions numbered 52103000, 52326601, 55124000, 53152000, and 50028000. (Action:
Embassy Lisbon, in coordination with EUR and DGHR)

                                          29
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 25: Embassy Lisbon, in coordination with the Bureau of European and
Eurasian Affairs, should reclassify position number 55124000 as a manager. (Action: Embassy
Lisbon, in coordination with EUR)

Recommendation 26: Embassy Lisbon should collect diplomatic pouch bags upon their arrival
and customs clearance. (Action: Embassy Lisbon)

Recommendation 27: Embassy Lisbon should establish a separate connection for the
dedicated Internet network. (Action: Embassy Lisbon)

Recommendation 28: Embassy Lisbon should establish a full-time telephone operator
position. (Action: Embassy Lisbon)

Recommendation 29: Embassy Lisbon should require that the U.S. Government Employees
Cooperative Association of Lisbon designate funds for its severance liability and record accrued
employee severance payable in its general ledger accounts. (Action: Embassy Lisbon)

Recommendation 30: Embassy Lisbon should issue a management instruction on travel
authorization and voucher policies and procedures, delineating the use of actual expenses and the
need for careful documentation of any personal deviations to authorized travel. (Action:
Embassy Lisbon)

Recommendation 31: Embassy Lisbon should conduct and document a management control
review of its time and attendance system and issue an appropriate management notice. (Action:
Embassy Lisbon)

Recommendation 32: Embassy Lisbon should establish procedures to ensure timekeepers do
not record their own time and attendance data and supervisors do not approve their own records.
(Action: Embassy Lisbon)

Recommendation 33: Embassy Lisbon should establish an accounts receivable system in the
financial management unit. (Action: Embassy Lisbon)

Recommendation 34: Embassy Lisbon should issue a management notice instructing
supervisors of subcashiers to comply with requirements for monthly or quarterly unannounced
cash verifications and financial management officer monitoring. (Action: Embassy Lisbon)

Recommendation 35: Embassy Lisbon should update work requirements statements for
supervisors of subcashiers to reflect requirements to conduct cash verifications. (Action:
Embassy Lisbon)

Recommendation 36: Embassy Lisbon should report payments exceeding $600 per year to
grantees and to the Internal Revenue Service. (Action: Embassy Lisbon)

Recommendation 37: Embassy Lisbon should include a work requirement for supervisors of
locally employed staff members to complete locally employed staff performance evaluations and
work requirements statements on time and rate the supervisors based on their conformance to
this standard. (Action: Embassy Lisbon)

                                         30
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 38: Embassy Lisbon should require that consular cash deposits for the
Funchal consular agency are promptly recorded on Optional Form 158 and the form immediately
transmitted to the consular agency. (Action: Embassy Lisbon)

Recommendation 39: Embassy Lisbon should promptly process the monthly Daily
Accounting Sheet reports for the consular agency in Funchal and immediately transmit them to
the consular agency. (Action: Embassy Lisbon)

Recommendation 40: (b) (5)




                                        31
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
Informal recommendations cover operational matters not requiring action by organizations
outside the inspected unit and/or the parent regional bureau. Informal recommendations will not
be subject to the OIG compliance process. However, any subsequent OIG inspection or on-site
compliance review will assess the mission’s progress in implementing the informal
recommendations.

Informal Recommendation 1: Embassy Lisbon should review staffing requirements for the
standing bilateral commission meetings with a view toward reducing the time and resources
devoted to them.

Informal Recommendation 2: Embassy Lisbon should review tasking procedures for the
political/economic section to ensure that officers focus on policy priorities.

Informal Recommendation 3: Embassy Lisbon should include biographic reporting and
leadership analysis responsibilities in the work requirements of all officers who have significant
contact work.

Informal Recommendation 4: Embassy Lisbon should require appropriate sections of the
mission to provide local content for the embassy Web page.

Informal Recommendation 5: Embassy Lisbon should reassign to the public affairs officer
responsibility for Fulbright matters on the standing bilateral commission.

Informal Recommendation 6: Embassy Lisbon should require that the assistant public affairs
officer obtain a grants warrant.

Informal Recommendation 7: Embassy Lisbon should distribute public diplomacy grants
appropriately in support of all mission goals.

Informal Recommendation 8: Embassy Lisbon should monitor the temperature of the visa
waiting room to ensure that it remains within acceptable standards.

Informal Recommendation 9: Embassy Lisbon should schedule and hold regular consular staff
meetings and a yearly consular teambuilding leadership event.

Informal Recommendation 10: Embassy Lisbon should rewrite and reclassify the position
descriptions of the locally employed staff members with visa responsibilities.

Informal Recommendation 11: Embassy Lisbon should perform annual validation studies of
its visa issuances, including referral cases.

Informal Recommendation 12: Embassy Lisbon should sell Consulate Ponta Delgada’s excess
property.

Informal Recommendation 13: Embassy Lisbon should examine options for housing the
streamlined consulate and implement the most cost-effective solution.
                                          32
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 14: Embassy Lisbon should issue a management notice instructing
staff that the basement repair shops are not a thoroughfare.

Informal Recommendation 15: Embassy Lisbon should develop a database for local
employees’ training.

Informal Recommendation 16: Embassy Lisbon should revise the duty schedule for the
classified pouch escort duty to include only mission offices that regularly use the classified
pouch.

Informal Recommendation 17: Embassy Lisbon should provide the telephone operators with
procedures for responding to consular-related calls.

Informal Recommendation 18: Embassy Lisbon should reevaluate language requirements for
local-hire positions to ensure they accurately reflect the needs of the job.

Informal Recommendation 19: Embassy Lisbon should establish management controls for all
tablet computers.

Informal Recommendation 20: Embassy Lisbon should rotate consular cashier duties to
ensure that all cashiers stay current and knowledgeable.




                                          33
                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                            Name     Arrival Date
Ambassador                                           Allan J. Katz     04/10
Deputy Chief of Mission                              Lucy Tamlyn       12/10
Constituent Post
   Ponta Delgada Consul General                       Rafael Perez     09/11
Chiefs of Sections:
  Management                                        Bruce Wilson       09/10
  Consular                                    Christopher Richard      09/10
  Political/Economic                              Gabriel Escobar      08/11
  Public Affairs                                    Virginia Staab     01/12
  Regional Security                                David Groccia       05/10
Other Agencies:
  Homeland Security, Customs and Border
  Protection                                       Richard Sparks      12/08
  Foreign Commercial Service                         Mark Russell      08/11
  Drug Enforcement Administration                     Bruce Daniel     03/11
  Defense Attaché Office                    Col. William Hampton       05/11
  Office of Defense Cooperation            Cmdr. Terrence Dudley       08/10




                                      34
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
BBG             Broadcasting Board of Governors

DCM             Deputy chief of mission

Department      U.S. Department of State

FAH             Foreign Affairs Handbook

FAM             Foreign Affairs Manual

ICASS           International Cooperative Administrative Support Services

IM              Information management

LE              Locally employed

NATO            North Atlantic Treaty Organization

OIG             Office of Inspector General

PAO             Public affairs officer

PAS             Public affairs section




                            35
                SENSITIVE BUT UNCLASSIFIED
              SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
